     Department of Homeland Security




     FEMA Should Recover $701,028 of Public Assistance 

      Grant Funds Awarded to Memphis Light, Gas and 

      Water Division – Severe Weather February 2008 





DA-13-07                                    November 2012

                                           OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security
                                                 Washington, DC 20j 28 I www.oig.dhs.gov



                                                    NOV 2 0 20\2
     MEMORANDUM FOR:                       Major P. (Phil) May
                                           Regional Administrator, Region IV
                                           Federal Emerge

     FROM :
                                           Assistant In sp or Ge eral
                                           Office of Em gency Management Oversight

    SUBJECT:                               FfMA Should Recover $701,028 oj Public Assistance Grant Funds
                                           Awarded to Memphis Light, Gas and Water Division - Severe
                                           Weather February 2008
                                           FEMA Disaster Number 1745·DR-TN
                                           Audit Report Number DA-13-07

     We audited Public Assistance {PAl grant funds awarded to Memphis light, Gas and Water
    Division (Utility) in Memphis, Tennessee (FIPS Code 157-0464A-OO). Our audit objective was to
    determine whether the Utility accounted for and expended Federal Emergency Management
    Agency (FEMA) grant funds according to Federal regulations and FEMA guidelines.

      As of January 4,2012, the Utility received a PA awa rd of $3.2 million from the Tennessee
      Emergency Management Agency (State), a FEMA grantee, for damages resulting from severe
      storms, tornadoes, straight-line winds, and flooding, which occurred in February 2008. Th e
      award provided 75 percent FEMA funding for emergency protective measures and electrical
    , repair work. The award included three large projects and two sma ll projects. 1
I
     We audited three large projects and one small project with awards totaling $3.2 million.
     The audit covered the period of February 5, 2008, to March 10, 2010, during w hi,ch the
     Utility claimed $3.2 million (see Exhibit A, Schedule of Projects Audited) and received $2.4
     million of FEMA funds. At th e time of the audit, the Utility had completed work on all
     projects and had submitted a final claim to the State for project expenditures.

     We conducted this performance audit between January and July 2012 pursuant to the Inspector
     General Act of 1978, as amended, and according to generally accepted government audit ing
     standards. Those standard s req uire that we plan and perform the audit to obtain sufficient,
     appropriate evidence to provide a reasonable basis for our findings and conclusions based upon
     our audit objective. We believe that the evidence obtained provides a rea sonable basis for our


     1   fedenl regulations in effect at the time of the disaster set the large project threshold at $60,900.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


findings and conclusions. To conduct this audit we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed Utility,
State, and FEMA personnel; reviewed the Utility’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary under the circumstances to accomplish our audit objective. We did not
assess the adequacy of the Utility’s internal controls applicable to its grant activities because it
was not necessary to accomplish our audit objective. However, we gained an understanding of
the Utility’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                        RESULTS OF AUDIT

FEMA should recover $701,028 of PA funds awarded to the Utility. Although the Utility
accounted for expenditures on a project-by-project basis, its claim included $692,390 for
contracts that were not procured according to Federal procurement requirements and $8,638
for ineligible force account labor and equipment charges.

Finding A: Improper Procurement Procedures

The Utility did not comply with Federal procurement requirements and FEMA guidelines when
awarding contracts valued at $692,390 for electrical restoration work. Federal procurement
regulations at 44 CFR 13.36 required the Utility, among other things, to—

•	 Conduct all procurement transactions in a manner providing full and open competition
   except under certain circumstances. One allowable circumstance is when the award of a
   contract is infeasible under small purchase procedures, sealed bids or competitive
   proposals, and there is a public exigency or emergency for the requirement that will not
   permit a delay resulting from competitive solicitation (44 CFR 13.36(c)(1) and (d)(4)(i)).

•	 Perform a cost or price analysis in connection with every procurement action, including
   contract modifications, to determine the reasonableness of the contractor’s proposed price
   (44 CFR 13.36(f)(1)).

•	 Use time-and-material type contracts only after a determination that no other contract is
   suitable; and if the contract includes a ceiling price the contractor exceeds at its own risk
   (44 CFR 13.36(b)(10).




www.oig.dhs.gov                               2	                                  DA-13-07
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


In addition, FEMA’s Public Assistance Guide (FEMA 322, June 2007, pp. 51–52) specifies that—

•	 Contracts must be of reasonable cost, generally must be competed, and must comply with
   Federal, State, and local procurement standards.

•	 Noncompetitive proposals should be used only when the award of a contract is not feasible
   under small purchase procedures, sealed bids, or competitive proposals, and one of the
   following circumstances applies: (1) the item is available only from a single source, (2) there
   is an emergency requirement that will not permit a delay for competition, (3) FEMA
   authorizes noncompetitive proposals, or (4) solicitation from a number of sources has been
   attempted and competition is determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis (44 CFR 13.6(c)).

Under Project 200, the Utility awarded two noncompetitive time-and-material contracts for the
restoration of electrical power lost during the disaster. The Utility selected the contractors
from a list of potential sources it had compiled before the disaster. The contract work began on
February 6, 2008, and continued until February 10, 2008, when all power was restored. The
Utility claimed $692,390 of contract costs for the work during this emergency period. We
concluded that the need for electrical power constituted exigent circumstances that warranted
the use of noncompetitive contracts. However, the Utility (1) did not perform a cost or price
analysis to determine the reasonableness of the contractors’ proposed prices, and (2) did not
establish ceiling prices that the contractors exceeded at their own risk. As a result, FEMA has
no assurance that the $692,390 of contract work was obtained at a fair and reasonable price.
Therefore, we question the $692,390.

Utility officials said that they receive rates from contractors annually and compile a list of
potential sources (by location, availability, and expertise) in the event of an emergency.
However, there was no evidence in the Utility’s files that the prices were negotiated or
reviewed for reasonableness. We noted that the overtime rates for similar positions varied
considerably between the contractors. For example, one contractor’s overtime rate for a
general foreman was $85 per hour, while the other contractor’s overtime rate for a general
foreman was $133 per hour, or 56.4 percent more.

Federal regulation 44 CFR 13.40(a) requires the State, as grantee, to manage the day-to-day
operations of subgrantee activity and monitor subgrantee activity to ensure compliance with
applicable Federal requirements. The State accepted the costs in question during closeout of
the project in March 2010. However, the State’s closeout documentation did not indicate that
the costs were reviewed to ensure compliance with Federal procurement requirements and



www.oig.dhs.gov                              3	                                 DA-13-07
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


FEMA guidelines. In our view, the State should have done a better job of reviewing the
eligibility of the costs claimed by the Utility.

Utility Response: Utility officials disagreed with our finding and recommendation that the
contract costs be disallowed. They contend, based on the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, that the Utility is not liable for reimbursement or any other penalty
as long as the costs incurred were reasonable and the FEMA funds were used to mitigate losses
from the disaster. Further, they said that our audit focused solely on the Utility’s “perceived”
failure to comply with 44 CFR 13.36 and never dealt with the issue of whether the costs were
reasonable.

Office of Inspector General Response: On several occasions, we requested evidence from the
Utility that it performed a cost analysis to determine reasonableness of the contractor rates.
However, such pertinent documentation was never provided to us during the audit. Therefore,
our position remains unchanged.

Finding B: Ineligible Charges

The Utility’s claim included $8,638 of ineligible force account labor and equipment charges.2
We question the $8,638 as follows:

•	 Force Account Labor. Under Project 211, the Utility claimed $4,488 of ineligible force account
   regular-time labor and fringe benefits for Utility personnel who performed emergency
   work. FEMA Recovery Policy 9525.7 (Labor Cost-Emergency Work, November 16, 2006, pp.
   188–189) specifies that the costs of straight-time salaries and benefits of an applicant’s
   permanently employed personnel are not eligible in calculating the costs of emergency
   work. Utility officials said that a FEMA Project Officer advised them to claim the costs.
   However, FEMA policy is clear that such costs are ineligible for reimbursement.

•	 Force Account Equipment. Under Project 200, the Utility included $4,150 of ineligible force
   account equipment charges as a result of data entry/mathematical errors made by Utility
   personnel. Federal regulation 2 CFR 225 (Cost Principles for State, Local, and Indian Tribal
   Governments, Appendix A (C)(1)(j)) states that a cost must be adequately documented to be
   allowable under a Federal award.




2
    Force account refers to the Utility’s personnel and equipment.


www.oig.dhs.gov                                        4	                      DA-13-07
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                      RECOMMENDATIONS


We recommend that the Regional Administrator, FEMA Region IV:


       Recommendation #1: Disallow $692,390 (FEMA share $519,292) of ineligible costs
       claimed for contracts that were not procured in accordance with Federal requirements
       unless FEMA decides to grant an exception for all or part of costs as provided for in 44
       CFR 13.36(c) (finding A).

       Recommendation #2: Instruct the State to reemphasize to the Utility its requirement to
       comply with Federal procurement regulations and FEMA guidelines when acquiring
       goods and services under a FEMA award (finding A).

       Recommendation #3: Reemphasize to the State its requirement, as grantee, to
       adequately review costs claimed by subgrantees for compliance with applicable Federal
       procurement requirements and FEMA guidelines (finding A).

       Recommendation #4: Disallow $8,638 (FEMA share $6,478) of ineligible force account
       labor and equipment charges (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Utility and State officials during our audit. We also
provided a draft report in advance to FEMA, State, and Utility officials and discussed the results
of our findings and recommendations at the exit conference held on July 9, 2012. Utility
officials disagreed with Finding A. Their comments, where appropriate, are included in the
body of this report. FEMA and State officials did not comment.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and (3)
target completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.



www.oig.dhs.gov                              5                                  DA-13-07
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Major contributors to this report were David Kimble, Eastern Region Audit Director; William H.
Johnson, Audit Manager; Nadine F. Ramjohn, Senior Auditor; and, Jerry Aubin, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                            6                                  DA-13-07
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                                                                    EXHIBIT A

                                   Schedule of Projects Audited 

                                February 5, 2008, to March 10, 2010 

                               Memphis Light, Gas and Water Division 

                                FEMA Disaster Number 1745-DR-TN 


    Project                                               Amount       Amount       Amount
    Number                       Scope                    Awarded      Claimed     Questioned
      200         Electrical distribution system repair
                                                          $3,011,601 $3,011,601      $696,540
                  Mutual aid used to repair damage
      206
                  to distribution system                     93,734      93,734              0
                  Crews dispatched to turn off water
      210                                                    34,187      34,187              0
                  to sprinkler systems
                  Emergency Operations Center
      211                                                    80,081      80,081         4,488
                  costs and generator rental
    Total                                                 $3,219,603 $3,219,603      $701,028




www.oig.dhs.gov                                 7                                 DA-13-07
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                          EXHIBIT B 

                                 Report Distribution List 

                           Memphis Light, Gas and Water Division 

                            FEMA Disaster Number 1745-DR-TN


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code DA-12-012)

Grantee

Director, Tennessee Emergency Management Agency

State

State Auditor, Tennessee

Subgrantee

Chief Financial Officer, Memphis Light, Gas and Water Division




www.oig.dhs.gov                            8                         DA-13-07
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
